DAW}

CD

a

1.0

IN THE
SUPREME COURT OF THE UNITED STATES
I

:V1

V,

%\

\

:■!

\ E:]

J

1 LTli'Lzn

BENJAMIN ROSS-PETITIONER

FILED
MAY 2 1 2021
THE UNITED STATES OF AMERICA- RESPONDENT(S)
J§gyi31£yiL
FOR LEAVE TO PROCEED IN FORMA PAUPERIS
vs.

MOTION

The Petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
The Sixth Circuit Court of Appeals.
Petitioner's affidavit or declaration is NOT attached because the court below
appointed counsel in the current proceeding, and:
The appointment was made under the Criminal Justice Act, and;
A copy of the ORDER of appointment is appended.

a

Case No. 20-3163
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
BENJAMIN R. ROSS
Defendant - Appellant

Upon consideration of the motion of David C. Jack to withdraw as counsel for the
appellant,
It is ORDERED that the motion be, and it hereby is GRANTED. The court will appoint
new counsel to represent the appellant under the Criminal Justice Act.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: February 20, 2020

/J

